CAPITAL CASE
No. 20-1084
IN THE

Supreme Court of the United States
___________

COMMISSIONER, ALABAMA DEPARTMENT OF
CORRECTIONS,
Petitioner,
v.
MATTHEW REEVES,
___________

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
___________

BRIEF IN OPPOSITION
___________

JODI E. LOPEZ
RARA KANG
SIDLEY AUSTIN LLP
555 W. 5th Street
Los Angeles, CA 90013

CHARLES A. STEWART III
JONATHAN C. RUDY H ILL
BRADLEY ARANT BOULT
CUMMINGS, LLP
445 Dexter Ave.,
Ste. 9075
Montgomery, AL 36104

ROBERT N. H OCHMAN *
BENJAMIN I. FRIEDMAN
MASEEH MORADI
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000
rhochman@sidley.com

DANIEL J. DRISCOLL
SIDLEY AUSTIN LLP
2021 Mckinney Ave.,
Ste. 2000
Dallas, TX 75201
Counsel for Respondent
April 12, 2021
* Counsel of Record

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES....................................

ii

INTRODUCTION ....................................................

1

COUNTERSTATEMENT........................................

4

REASONS FOR DENYING THE PETITION ......

16

I. THE STATE’S PETITION RELIES ON A
CLEAR MISREADING OF THE ALABAMA COURT’S OPINION ...........................

16

A. The Alabama Court’s Opinion Leaves No
Doubt That It Applied An Unreasonably
Incorrect Rule...............................................

16

B. Summary Reversal Here Would Radically Transform Habeas Review .....................

20

II. THE ELEVENTH CIRCUIT CORRECTLY
HELD THAT TRIAL COUNSEL WAS
CONSTITUTIONALLY INEFFECTIVE ......

23

A. Trial Counsel’s Performance Was Constitutionally Deficient ................................

24

B. Trial Counsel’s Performance Prejudiced
Reeves ..........................................................

28

CONCLUSION .........................................................

32

(i)

ii
CASES

TABLE OF AUTHORITIES

Page

Ake v. Oklahoma, 470 U.S. 68 (1985)............. 28
Atkins v. Virginia, 536 U.S. 304 (2002) ......... 5, 31
Broadnax v. State, 130 So. 3d 1232 (Ala.
Crim. App. 2013) ...........................................
2
Brosseau v. Haugen, 543 U.S. 194
(2004) .............................................................. 22
Brownlee v. Haley, 306 F.3d 1043 (11th
Cir. 2002) ....................................................... 7, 31
Buck v. Davis, 137 S. Ct. 759 (2017) .............. 25
CSX Transp., Inc. v. Hensley, 556 U.S. 838
(2009) .............................................................. 16
Cullen v. Pinholster, 563 U.S. 170 (2011)...... 21
Glenn
v.
Tate,
71
F.3d
1204
(6th Cir. 1995) ............................................... 29
Harrington v. Richter, 562 U.S. 86 (2011)..... 22
Hinton v. Alabama, 571 U.S. 263 (2014) ....... 28
Maryland v. Dyson, 527 U.S. 465 (1999) ....... 16
Nix v. Whiteside, 475 U.S. 157 (1986) ............ 29
Porter v. McCollum, 558 U.S. 30 (2009) ........ 30
Rompilla v. Beard, 545 U.S. 374 (2005) ........ 24
Smith v. Cain, 565 U.S. 73 (2012) .................. 31
Stallworth v. State, 171 So. 3d 53 (Ala.
Crim. App. 2013) ........................................... 2, 12
State v. M.D.D., CR-19-0652, 2020 WL
6110694 (Ala. Crim. App.
Oct. 16, 2020).............................................1, 2, 18
Strickland v. Washington, 466 U.S. 668
(1984) ........................................................... passim
Tolan v. Cotton, 572 U.S. 650 (2014) ............. 22
Wiggins
v.
Smith, 539 U.S. 510
(2003) .......................................................15, 23, 28
Wilson v. Sellers, 138 S. Ct. 1188
(2018) .............................................................16, 17

iii
TABLE OF AUTHORITIES—continued

Page

Woodford v. Visciotti, 537 U.S. 19
(2002) .............................................................2, 20
STATUTES AND REGULATIONS
28 U.S.C. § 2254(d)...........................................
2
Ala. Code § 13A-5-51(6) .......................... 7, 9, 29, 31
Ala. Code § 13A-5-52 ........................................
7

INTRODUCTION
The Alabama Court of Criminal Appeals (“CCA”)
rejected death-row inmate Matthew Reeves’s federal
ineffective-assistance claim because it ruled that, to
prove such a claim, a petitioner “must, at his evidentiary hearing, question trial counsel regarding his or
her actions and reasoning.” Pet. App. 270a–271a (emphasis in original). It did so after the State urged it to
apply that rule. ECF No. 23-29 at 200. 1 It did so despite Reeves’s argument that that “there is no requirement that trial counsel testify” in order to succeed on an ineffective-assistance claim. Pet. App.
268a. The CCA’s opinion stressed that Reeves’s trial
counsel had failed to testify, and its analysis of
Reeves’s ineffective-assistance claim mentioned none
of the other evidence demonstrating counsel’s deficient performance. To the CCA, “Reeves’s failure to
call his attorneys to testify is fatal to his claims of ineffective assistance of counsel.” Id. at 272a. That is
what the CCA’s opinion said over and over again.
And that is how the CCA has since characterized its
opinion in Reeves’s case. See State v. M.D.D., CR-190652, 2020 WL 6110694, at *8 (Ala. Crim. App. Oct.
16, 2020).
The Eleventh Circuit’s ruling before this Court took
the CCA at its word. It held that the CCA’s rule requiring trial counsel testimony is an unreasonable
application of Strickland v. Washington, 466 U.S. 668
(1984). Accordingly, the Eleventh Circuit reviewed de
novo Reeves’s ineffective-assistance claim, concluding
that trial counsel provided ineffective assistance at
the sentencing phase. The Court’s conclusion rested
1 All citations to “ECF No.” refer to documents electronically
filed in Reeves v. Dunn, No. 1:17-cv-00061-KD-MU (S.D. Ala.).

2
on trial counsel’s failure to hire an expert to evaluate
Reeves for intellectual disability, despite representing to the trial court that such an expert was the “only avenue” for presenting compelling mitigation evidence to the jury and petitioning the trial court for
funds to hire an expert twice. ECF No. 23-1 at 70, 74–
75.
The State concedes in this Court that a rule requiring trial counsel testimony to establish an ineffectiveassistance claim is an unreasonable application of
Strickland. It asserts, instead, that the Eleventh Circuit has mischaracterized the CCA’s ruling, and that
allowing it to do so upsets the federal-state balance
reflected in 28 U.S.C. § 2254(d). It asks for summary
reversal.
This Court should deny the petition. The CCA’s
opinion, on its face, repeatedly declares that trial
counsel’s testimony is required. The CCA has since
characterized its own opinion in this case as requiring
trial counsel to testify. Other decisions from the CCA,
both before and after its opinion here, have affirmed
that trial counsel’s testimony is required. See, e.g.,
Stallworth v. State, 171 So. 3d 53, 92 (Ala. Crim. App.
2013); Broadnax v. State, 130 So. 3d 1232, 1255 (Ala.
Crim. App. 2013); M.D.D., 2020 WL 6110694, at *8.
That the CCA has repeatedly articulated this rule
should come as no surprise to the State, which urged
the CCA to enforce the trial counsel testimony requirement in this very case. See ECF No. 23-29 at
199–200, 202, 206.
Summary reversal here would not vindicate either
the requirements or the policy of § 2254(d). To be
sure, federal courts should presume that “state courts
know and follow the law.” Woodford v. Visciotti, 537
U.S. 19, 24 (2002). But what the State seeks here is
something quite different. It asks this Court to save

3
the CCA from an admittedly indefensible error on the
face of its opinion. Far from showing respect to statecourt rulings, the State asks this Court to imagine
that the CCA ruled differently than it did and then to
revise the CCA’s admittedly unreasonable application
of federal law into something that, at least arguably,
could have complied with the Constitution. Nothing
in § 2254(d) or this Court’s opinions authorizes, much
less demands, such an approach. No policy recommends it. And such a dramatic change in the law is
not what this Court’s summary reversal procedure is
for.
To bolster its request for summary reversal, the
State contends that the Eleventh Circuit’s ruling that
Reeves’s trial counsel was constitutionally ineffective
was wrong on the merits. The State does not deny
that if the CCA’s ruling involved an unreasonable
application of Strickland, then the Eleventh Circuit
properly considered Reeves’s claim de novo. Instead,
the State speculates that trial counsel may have
made a strategic decision not to engage an expert to
evaluate Reeves for mental deficiency. But the evidence, most of which the State simply ignores, establishes that Reeves’s trial counsel all thought an expert evaluation was necessary and yet failed to engage an expert to do so.
The Eleventh Circuit properly observed how trial
counsel knew that Reeves might be intellectually disabled and the significance of that fact to the mitigation phase of his capital trial. It was so important to
his sentencing-phase defense that counsel repeatedly
and ultimately successfully petitioned the trial court
for funds to retain a specific clinical neuropsychologist to evaluate Reeves for intellectual disability. Yet
after much effort and repeatedly telling the court that
the funds were essential, trial counsel failed to con-

4
tact the neuropsychologist that they had identified or
retain any other expert. Instead, trial counsel presented testimony from a court-appointed psychologist. The psychologist conceded that her only mandate was to assess Reeves’s competency to stand trial
and mental state at the time of the offense. She had
not evaluated Reeves for intellectual disability; and
she had not performed a mitigation-phase evaluation
of him. In post-conviction proceedings, the courtappointed psychologist also revealed that she had not
even talked to trial counsel until the day she testified
at Reeves’s capital sentencing—at which point trial
counsel knew it would be too late.
As for prejudice, the Eleventh Circuit noted that
changing even one more juror’s mind on the propriety
of a death sentence would have precluded that punishment; that the trial court had not found any mitigating factors relating to intellectual disability; the
powerful testimony that the appointed neuropsychologist would have given; and the damaging testimony that the court-appointed clinical psychologist in
fact gave. The Eleventh Circuit carefully reviewed
the CCA’s opinion and the record, then faithfully applied AEDPA and Strickland. That decision warrants
no further review from this Court.
COUNTERSTATEMENT
1. In November 1996, Reeves, then 18 years old,
was arrested for the robbery and murder of Willie
Johnson. Two months later, he was indicted for one
count of capital murder in the course of a robbery. Id.
After his arrest, the court appointed Blanchard
McLeod and Marvin Wiggins to represent Reeves at
trial. ECF No. 23-1 at 6. In response to their initial
discovery requests, which included a request for all
documents relating to Reeves in the possession of the

5
Dallas County (Alabama) Juvenile Probation Services
and Alabama Department of Youth Services, id. at
41–42, they received “hundreds of pages of psychological, psychometric and behavioral analysis material”
suggesting the need for an intellectual disability
evaluation. Id. No. 23-30 at 90. Reeves’s school records revealed that he had been placed in special education classes, and had failed the first, fourth, and
fifth grades. Id. No. 23-15 at 135–36. Reeves never
advanced beyond middle school and reads at only a
third-grade level. Id. at 102–03. Reeves’s school records also indicated that he had “severe deficiencies in
non-verbal social intelligence skills and his ability to
see consequences,” id. No. 23-19 at 1112, and a Department of Mental Health and Mental Retardation
Outpatient Forensic Evaluation Report described him
as having “below normal intellectual functioning.” Id.
at 988. Additionally, an IQ test administered when
Reeves was 14 years old indicated that he had an IQ
of 73, and he received other similarly low scores in
early school testing. Id. No. 23-24 at 45–46; id. No.
23-15 at 104; cf. Atkins v. Virginia, 536 U.S. 304, 309
n.5 (2002) (the cutoff IQ score for the intellectual
function prong of the intellectual disability definition
is typically “between 70 and 75 or lower”).
Aware of the possibility that Reeves was intellectually disabled, and its significance to his mitigation
case, McLeod and Wiggins jointly petitioned the trial
court twice for funds to hire Dr. John Goff, a clinical
neuropsychologist, to evaluate Reeves. ECF No. 23-1
at 70–71, 74–77.
The first motion represented that Dr. Goff’s assistance would be “needed in both the guilt and sentencing phase of the trial of this case.” Id. at 70; id. No.
23-3 at 91. At a hearing on the motion, counsel stated
that “the amount of material that we have received

6
through discovery from the school and Department of
Youth Services is beyond our ability to deal with.” Id.
No. 23-3 at 91. See also id. at 93 (explaining that “we
are going to need someone to assist us in the mitigation phase of this case” “because of the tremendous
amount of discovery material provided to us”); id. at
96 (explaining that the “discovery material in the nature of a psychological and a psychiatric information
. . . is going to be exceptionally pertinent at the penalty phase of this proceeding”). In response to a suggestion that hiring an expert could be put off until the
start of the sentencing phase, Reeves’s counsel explained, “it’s going to be a little bit late . . . to worry
about then retaining someone to assist with the
preparation of the mitigation phase.” Id. at 93. The
trial judge denied the request without explanation.
Id. No. 23-1 at 73.
Two weeks later, McLeod and Wiggins again jointly
sought court approval for funds to hire Dr. Goff. Their
motion for reconsideration left no doubt that they
knew that Dr. Goff’s testimony was essential to persuading the jury or the judge not to impose a death
sentence, stating that “a clinical neuropsychologist or
a person of like standing and expertise [was] the o nly
avenue open to the defense to compile [information
about Reeves’ mitigating intellectual disability], . . .
interview the client[,] and present this information in
an orderly and informative fashion to the jury during
the mitigation phase.” Id. at 74–75.
This time, the trial court granted the request. The
trial court’s order appointed Dr. Goff “to interview,
test, and evaluate [Reeves for intellectual disability],
and give trial testimony regarding the same.” Id. at
81.
Soon after the court approved funds to hire Dr.
Goff, McLeod withdrew because he lacked a meaning-

7
ful working relationship with Reeves. Id. at 78. Wiggins, who had a productive relationship with Reeves,
stayed on, id., and another attorney, Thomas M. Goggans, was appointed to assist him.
The pair never contacted Dr. Goff. ECF No. 23-24
at 67–68; id. No. 23-15 at 96. Nor did they hire any
other mental health professional to evaluate Reeves
for intellectual disability before trial. In fact, during
the sentencing phase, counsel did not call a single
witness to testify regarding Reeves’s intellectual disability, notwithstanding that it had direct bearing on
statutory and non-statutory mitigating factors. See
Ala. Code § 13A-5-51(6) (making defendant’s “substantially impaired” capacity to appreciate the criminality of his conduct or conform his conduct to the
law a mitigating circumstance); Ala. Code § 13A-5-52
(“Mitigating circumstances shall include . . . any other relevant mitigating circumstance which the defendant offers”); Brownlee v. Haley, 306 F.3d 1043,
1071–73 (11th Cir. 2002) (noting that jury could have
found non-statutory mitigating factors based on impaired intellectual functioning and psychiatric disorders).
Instead, at the sentencing phase counsel called a
court-appointed clinical psychologist, Dr. Kathleen
Ronan. The State omits that counsel did not speak to
Dr. Ronan about Reeves until the day she testified,
ECF No. 23-15 at 10, at a time counsel had previously
told the court it would be too late for an expert witness to adequately prepare mitigation testimony, id.
No. 23-3 at 93–94.
The State mischaracterizes Dr. Ronan as having
“helpfully synthesized” the records in trial counsel’s
possession. Pet. 3. But Dr. Ronan had not been retained by trial counsel and, critically, had not conducted a sentencing-phase evaluation, which she lat-

8
er explained “would contain different components
than those for the trial phase evaluations, and would
be more extensive in terms of testing and background
investigation.” ECF No. 23-15 at 11. She also had not
evaluated Reeves for intellectual disability. Id. at 10.
Although trial counsel called Dr. Ronan to testify,
they had no reason to think Dr. Ronan could offer testimony regarding Reeves’s intellectual disability. Two
months before they sought funds to hire Dr. Goff, trial counsel had received Dr. Ronan’s report containing
her opinions. Id. No. 23-13 at 58. The report noted
that the trial court had appointed Dr. Ronan to evaluate Reeves only for “his competence [sic] to stand
trial and his mental state at the time of the alleged
offense.” Id. at 59; see also id. No. 23-8 at 133; id. No.
23-15 at 8–11. The report further explained that Dr.
Ronan had not administered a full IQ test. Id. No. 2313 at 65. Instead, Dr. Ronan administered “only the
verbal portions” because those were most relevant to
Reeves’s competency to stand trial. Id. Although trial
counsel, after obtaining funds to hire Dr. Goff, later
petitioned the trial court for records relating to Dr.
Ronan’s evaluation of Reeves from her employer, the
Taylor Hardin Secure Medical Facility, those records
contained no new information on Reeves’s intellectual
disability and cannot explain or excuse trial counsel’s
failure to contact Dr. Goff. ECF No. 23-1 at 88.
Before the jury, Dr. Ronan testified regarding the
limited scope and purpose of her examination of
Reeves. Id. No. 23-8 at 133, 144–45. Though Dr. Ronan had not administered a full IQ test nor had she
assessed his adaptive skills, both of which are necessary components of an intellectual disability evaluation, id. No. 23-25 at 51–52; id. No. 23-15 at 11–12,
she nevertheless testified on cross-examination that
Reeves was not intellectually disabled, stating that

9
“[h]e was not in a level that they would call . . . mental retardation, no.” Id. No. 23-8 at 155. Reeves’s
counsel did not object to the State’s question or Dr.
Ronan’s answer, nor did they attempt to establish on
redirect that Dr. Ronan had not performed any of the
testing needed to offer that opinion. Id. at 158–62.
The jury recommended that Reeves receive the
death sentence by a vote of 10-2, the bare minimum
under Alabama law. Id. at 207–08. Nearly six months
later, on July 20, 1998, the trial judge evaluated the
trial record and sentenced Reeves to death. Id. at
212. Given the scant mitigation evidence presented,
the court found only two mitigating factors, Reeves’s
age at the time of the offense and lack of significant
prior criminal history. Id. Based on Dr. Ronan’s testimony, the court found that Reeves’s capacity to appreciate the criminality of his conduct or conform his
conduct to law was not “substantially impaired.” Ala.
Code § 13A-5-51(6).
2. Following an unsuccessful motion for a new trial
and appeal of his conviction and sentence, Reeves petitioned for relief under Rule 32 of the Alabama Rules
of Criminal Procedure. ECF No. 23-12 at 124. The petition claimed, among other things, that Reeves was
denied his Sixth Amendment right to the effective assistance of counsel during the sentencing phase.
Post-conviction counsel retained Dr. Goff, who finally evaluated Reeves in advance of the Rule 32
hearing. Dr. Goff testified that Reeves was intellectually disabled. Id. No. 23-24 at 67. Unlike Dr. Ronan,
Dr. Goff administered a full-scale IQ test, yielding a
score of 71. Id. at 42–43. Dr. Goff also assessed
Reeves’s adaptive functioning, which identified significant deficits in six skill areas (functional academics,
work, health and safety, leisure, self-care, and selfdirection), more than the two categories required for

10
a diagnosis of intellectual disability. Id. at 25–27, 39,
42–46, 51–63, 76, 78–80; id. No. 23-15 at 102. Dr.
Goff further testified that, had he been asked to evaluate Reeves and testify at the time of Reeves’s trial,
he would have performed a similar evaluation and
would have reached the same conclusion. Id. No. 2324 at 22–23, 68–69; id. No. 23-15 at 105.
At the Rule 32 hearing, post-conviction counsel offered an affidavit from Dr. Ronan. In her affidavit,
Dr. Ronan admitted that she had not performed the
testing necessary to evaluate Reeves for intellectual
disability or investigate the existence of any other
mitigating factors. The affidavit explained that Dr.
Ronan “was not requested to complete a sentencing
phase evaluation” and “had not conducted an extensive clinical evaluation regarding mental retardation
as that was not within the scope of [her] evaluation.”
Id. No. 23-15 at 10. She elaborated that an evaluation
for capital sentencing would contain different components and be significantly more extensive than one
for the trial phase. Id. at 11. For example, had Dr.
Ronan conducted an intellectual disability evaluation, the entire IQ test “would be required to be given,” and further investigation into adaptive functioning would have been necessary. Id. Dr. Ronan further
testified that the “[a]ttorneys were routinely informed
as to the limitations” of her testimony for the capital
penalty phase, “in that the original evaluation was
not performed for that purpose.” Id.
The State called its own expert, Dr. Glen King, to
testify regarding Reeves’s intellectual abilities. Dr.
King concluded that Reeves is not intellectually disabled. But Dr. King determined that Reeves’s IQ was
68, which Dr. King acknowledged satisfied the IQ element for a diagnosis of intellectual disability. ECF
No. 23-25 at 23–24, 35, 57; id. No. 23-27 at 185. As

11
for his assessment of Reeves’s adaptive functioning,
Dr. King administered the ABS-RC-2 test, despite
acknowledging it “does not fit the psychometric criteria . . . for a diagnosis of mental retardation.” Id. No.
23-25 at 79–80. This is, according to the authoritative
text in the field, because the test is normed against
the developmentally disabled population (i.e., intellectually disabled and borderline functioning individuals), and thus shows how Reeves’s adaptive functioning compares to other developmentally disabled
individuals. Id. at 74–77. The results of that test
nonetheless revealed that, in three categories—
prevocational/vocational activity, domestic activity,
and self-direction—Reeves functioned in the bottom
25% of intellectually disabled individuals. Id. at 66–
69, 74–81; id. No. 23-27 at 186.
In October 2009, the Rule 32 Court rejected
Reeves’s ineffective-assistance claim because he
“failed to call either Goggans or Wiggins in support of
[his] claim.” Pet. App. 315a. The Rule 32 court repeatedly noted the failure to call trial counsel during
the Rule 32 proceedings, citing that fact six times,
and refused to consider any other evidence. See id.
(noting that Reeves “failed to call either Goggans or
Wiggins in support of [his] claim of ineffective assistance of counsel”); id. at 317a (same); id. at 318a
(same); id. at 319a (same); id. at 321a (same); id. at
322a (same). Reeves appealed that decision to the
CCA.
On appeal, Reeves argued, among other things,
that there is no “requirement that trial counsel testify” in support of an ineffective assistance claim. Id. at
268a. The State disagreed. It argued that the absence
of trial counsel testimony was an independent basis
to reject Reeves’s ineffective-assistance claims. According to the State, “Because Reeves failed to call

12
his attorneys to testify during the Rule 32 proceedings, [the CCA] should find that Reeves failed to
prove deficient performance.” ECF No. 23-29 at 200;
see id. at 202 (same); id. at 206 (same).
The CCA rejected Reeves’s argument that testimony from trial counsel is unnecessary and affirmed the
Rule 32 Court’s decision on that basis. The CCA explained that “a Rule 32 petitioner must, at his evidentiary hearing, question trial counsel regarding his
or her actions and reasoning.” Pet. App. 271a (quoting Stallworth, 171 So. 3d at 92) (underlining in original). As support for this rule, the CCA relied on its
own prior decisions, including in Stallworth, 171 So.
3d at 92, and Broadnax, 130 So. 3d at 1255, which
root its trial-counsel-testimony requirement in the
presumption that counsel performed effectively. Pet.
App. 270a–271a. That presumption, the court continued, cannot be overcome where the record is “silent
as to the reasoning behind counsel’s actions,” and the
record is “silent” on that point unless trial counsel
has testified. Id. at 269a–270a; see also id. at 277a
(“[B]ecause Reeves failed to call his counsel to testify,
the record is silent . . . .”); id. at 281a (“Reeves presented no evidence at the evidentiary hearing regarding what mitigation investigation his trial counsel
conducted, because Reeves failed to call trial counsel
to testify.”). Because “Reeves did not call McLeod,
Goggans, or Wiggins to testify,” the CCA explained
that the “circuit court found that Reeves had failed to
prove his claims of ineffective assistance of trial []
counsel.” Id. at 268a.
Accordingly, the CCA held that “Reeves’s failure to
call his attorneys to testify is fatal to his claims of ineffective assistance of counsel.” Id. at 272a. Having
decided to reject Reeves’s claim on that basis, the
CCA’s analysis of Reeves’s Strickland claims did not

13
mention any of the evidence discussed above demonstrating that Reeves’s counsel knew the importance
of Dr. Goff’s evaluation and had persistently and successfully argued for funds to retain him.
The Alabama Supreme Court subsequently denied
Reeves’s petition for a writ of certiorari. ECF No. 2332 at 48. This Court denied Reeves’s petition for certiorari from the Alabama Rule 32 proceedings. Justice Sotomayor’s dissent, joined by Justices Kagan
and Ginsburg, observed that it was “plain[]” and “unquestionab[le]” that the CCA had applied a rule that
an ineffective-assistance claim cannot succeed without trial-counsel testimony. Pet. App. 179a, 189a.
3. Reeves next petitioned the District Court fo r the
Southern District of Alabama for a writ of habeas
corpus pursuant to 28 U.S.C. § 2254, arguing among
other things that counsel was constitutionally ineffective during the sentencing phase of his trial. The district court denied his amended petition.
A unanimous panel of the Eleventh Circuit reversed. Pet. App. 22a–45a. First, the Eleventh Circuit
observed that the CCA had treated the lack of trialcounsel testimony as a per se bar to relief, noting the
clear statements in its opinion as well as its failure to
mention any of the evidence or explain why that evidence could not establish ineffectiveness. Id. 24a. Relying on this Court’s decisions, the Eleventh Circuit
then reasoned that the CCA’s rule represented an
unreasonable application of Strickland, 466 U.S. 668.
Id. at 25a–31a.
Accordingly, the Eleventh Circuit reviewed de novo
the merits of Reeves’s Strickland claim. Id. at 31a.
Trial counsel was deficient, the panel explained, because they ended their investigation at an “unreasonable juncture” by not retaining an expert to eval-

14
uate Reeves for intellectual disability. Id. at 31a–32a
(quoting Wiggins v. Smith, 539 U.S. 510, 527–28
(2003)). Specifically, the court pointed to trial counsel’s earlier statements that a neuropsychologist was
urgently needed and “the only avenue” to compile information about Reeves’s intellectual disability, interview Reeves, and then present the information in
an orderly and informative fashion to the jury. ECF
No. 23-1 at 74–75. Trial counsel’s subsequent failure
to contact Dr. Goff—despite being given over three
months to do so and having petitioned twice for funds
to hire him—was “particularly unreasonable and deficient,” the Eleventh Circuit continued, “in light of
what trial counsel actually knew about the need for
an intellectual disability evaluation,” Pet. App. 33a,
including “hundreds of pages” in their possession concerning Reeves’s mental health and school records,
his low IQ scores, an outpatient forensic evaluation
report, and more, id. at 32a–34a.
The Eleventh Circuit further held that trial counsel’s reliance on Dr. Ronan instead of Dr. Goff was
unreasonable given that she was not a neuropsychologist (as counsel had stressed they needed) but a
psychologist who had evaluated Reeves only for competency to stand trial and to determine his mental
state at the time of the offense. Dr. Ronan also had
not conducted a proper clinical evaluation regarding
intellectual disability, and had not spoken with co unsel about Reeves until the day she testified. Id. at
35a.
The court added that records suggesting that
Reeves was in the borderline range of intelligence
could not excuse trial counsel’s failure to contact Dr.
Goff. Id. at 36a–37a. Since counsel had other indications that Reeves might be intellectually disabled,
were aware that Reeves’s intellectual ability was a

15
critical issue, and had already received the funding
for an evaluation from Dr. Goff, counsel should have
at least had Reeves’s mental capacity evaluated so
they could “mak[e] an informed choice among possible
defenses.” Id. (quoting Wiggins, 539 U.S. at 525).
On prejudice, the Eleventh Circuit noted that the
jury had recommended a death sentence by the narrowest possible margin, and that Reeves was required to establish only “a reasonable probability that
at least one juror would have struck a different balance” between life and death. Wiggins, 539 U.S. at
537. The record, the Eleventh Circuit concluded, met
that standard.
Reeves’s mental capacity was relevant to one statutory mitigating circumstance and two non-statutory
mitigating circumstances that had not been found.
Pet. App. 41a. And the mitigating evidence that trial
counsel failed to obtain “was powerful.” Id. at 42a. Dr.
Goff testified that Reeves was “mentally retarded,” he
read at a third-grade level and spelled at a fifth-grade
level, his other academic skills were at a fourth-grade
level, and he had throughout his life significant deficits in self-direction, functional academics, work activities, and health and safety. Id. Instead of hearing
all this, the jury heard Dr. Ronan baselessly opine
that Reeves “was not in a level that they would call
. . . mental retardation.” Id. at 43a.
The Eleventh Circuit also noted that the State did
not “point to any additional aggravating evidence
that would have been introduced had counsel presented testimony” about Reeves’s intellectual disability. Id. at 44a. For these reasons, the panel held that
“the available mitigating evidence, taken as a whole,
might well have influenced the jury’s [or the trial
judge’s] appraisal” of Reeves’s moral culpability. Id.
at 44a–45a (quoting Wiggins, 539 U.S. at 538).

16
The State did not request either panel rehearing or
rehearing en banc from the Eleventh Circuit.
REASONS FOR DENYING THE PETITION
Summary reversal is appropriate only where a lower court has not only erred, but done so “demonstrably” and “clear[ly].” Maryland v. Dyson, 527 U.S. 465,
467 n.1 (1999); CSX Transp., Inc. v. Hensley, 556 U.S.
838, 840 (2009). That standard is not remotely met
here. The State strains to create an impression of error by badly mischaracterizing the decision of the
CCA and ignoring compelling evidence relied upon by
the Eleventh Circuit.
I. THE STATE’S PETITION RELIES ON A
CLEAR MISREADING OF THE ALABAMA
COURT’S OPINION
A. The Alabama Court’s Opinion Leaves No
Doubt That It Applied An Unreasonably
Incorrect Rule.
The State cannot defend a rule that rejects ineffective-assistance claims for lack of trial-counsel testimony as a reasonable application of Strickland. So
instead, the State contends that the CCA “consider[ed] all the circumstances” surrounding Reeves’s
ineffective-assistance claim before rejecting it, notwithstanding that it recited an incorrect legal rule.
Pet. 19, 23. That reading cannot be squared with
what the CCA actually said.
As the State acknowledges, a federal court must
presume that a state court “meant what it wrote.” Id.
at 19. What matters in discerning the CCA’s reasoning is the text of its opinion. See, e.g., Wilson v.
Sellers, 138 S. Ct. 1188, 1191 (2018) (Under AEDPA,
“when the last state court to decide a prisoner’s federal claim explains its decision on the merits in a rea-

17
soned opinion[,] . . . a federal habeas court simply reviews the specific reasons given by the state court
and defers to those reasons if they are reasonable.”).
Here, the CCA’s reasoning could not be clearer. The
trial court rejected Reeves’s ineffective-assistance
claim because he did not call trial counsel to testify.
See, e.g., Pet. App. 315a. On appeal, Reeves argued
that the trial court wrongly denied his ineffectiveassistance claim because “there is no requirement
that trial counsel testify [to succeed on an ineffectiveassistance claim].” Id. at 268a. And the CCA rejected
that argument. It cited five prior decisions from Alabama courts that hold, “to overcome the strong presumption of effectiveness, a Rule 32 petitioner must,
at his evidentiary hearing, question trial counsel regarding his or her actions and reasoning.” Id. at
270a–271a (quoting Stallworth, 171 So. 3d at 92)
(underlining in original). Contrary to the State’s suggestion, the Eleventh Circuit did not selectively
“pluck[]” this line from the CCA’s opinion. Pet. 3, 18.
The CCA, not the Eleventh Circuit, emphasized the
rule by underlining it. Pet. App. 271a.
The CCA further stated that the presumption of
adequacy cannot be overcome where the record is silent as to counsel’s reasoning, and that the record is
silent unless trial counsel has testified. Id. 269a–
270a, 277a. For these reasons, the CCA determined
that “Reeves’s failure to call his attorneys to testify is
fatal to his claims of ineffective assistance of counsel.”
Id. at 272a. The meaning of these statements is plain;
they are not subject to reasonable debate. To extract
some other rule from the opinion would require ignoring or rewriting those statements.
It is not only what the CCA plainly said that makes
clear that Alabama requires trial-counsel testimony.
What the CCA did not say confirms its view of the

18
law. The CCA said nary a word about the extensive
evidence demonstrating counsel’s ineffectiveness.
Trial counsel knew that Reeves was quite possibly
intellectually disabled and yet failed even to contact
Dr. Goff (or any other neuropsychologist) after they
had urgently requested, and then been granted, funds
for an evaluation. Trial counsel called a psychologist
who had not prepared for the mitigation phase and
who they had spoken to about Reeves for the first
time that day. Ignoring all of this, the CCA simply
stated over and over that the record was silent because trial counsel had not testified at the Rule 32
hearing. Id. at 200a, 268a, 272a, 277a, 281a.
The opinion, and all of the evidence disregarded by
the CCA, fully support, indeed compel, the Eleventh
Circuit’s conclusion that the CCA rejected Reeves’s
ineffective-assistance claim based on its view that
counsel “must” testify. That is, in fact, how the CCA
views its own opinion. Just last year, that court confirmed that it held in this case “that [Reeves] had
failed to prove his claims of ineffective assistance of
trial and appellate counsel because he did not call his
trial or appellate counsel to testify at the Rule 32 evidentiary hearing.” See M.D.D., 2020 WL 6110694, at
*8 (describing Reeves v. State, 226 So. 3d 711 (Ala.
Crim. App. 2016)).
Contrary to the State’s petition, acknowledging
that the CCA applied a rule requiring trial counsel
testimony does not “require[] reading large portions
of the opinion as, at best, superfluous.” Pet. 19. The
State neither cites nor describes the supposedly “superfluous” portions of the CCA’s opinion. In fact, the
CCA’s discussion of Reeves’s ineffective-assistance
claim provides a background on such claims generally, Pet. App. 261a–267a; notes that Reeves’s trial
counsel did not testify at the Rule 32 hearing, id. at

19
267a–268a; rejects the argument that trial counsel
testimony is not required to prevail on an ineffective assistance claim, id. at 268a–272a; enumerates the
specific claims of ineffective assistance that Reeves
asserted, id. at 272a–274a; and then cursorily denies
each one because counsel had not testified at the Rule
32 hearing, id. at 274a–282a. None of this is superfluous if, as the CCA repeatedly emphasized, it was
applying a rule requiring trial counsel testimony.
All the State has to support its view that Alabama
does not require trial counsel testimony is three
words: “In this case.” See Pet. 16. It is true that the
CCA’s opinion, at one point, states: “In this case,
Reeves’s failure to call his attorneys to testify is fatal
to his claims of ineffective assistance of counsel.” Id.
at 272a. According to the State, the use of “in this
case” signals that the CCA in fact undertook an individualized analysis of Reeves’s ineffective-assistance
claims rather than applied a categorical rule. Pet. 4,
16, 19, 20, 21. Those three words, however, cannot
save the CCA’s opinion.
Had the words “in this case” been meant to indicate
that the failure to present trial-counsel testimony
was decisive because of the record, the court would
have proceeded to discuss the record. But it did not.
It stopped with the failure to present trial counsel
testimony because, to the CCA, that was enough.
Read in context, the phrase “in this case” serves a
more prosaic purpose. The opinion had just described
the relevant law, and was transitioning to discuss
Reeves’s claim. Pet. App. 269a–272a. The relevant
law includes more than the rule requiring trial counsel testimony, so the CCA used the phrase “in this
case” to indicate the particular reason why Reeves’s
claim was being rejected. And that reason is, as the
rest of the sentence makes clear, because the CCA

20
requires trial-counsel testimony to prevail on an ineffective-assistance claim. That is exactly how the CCA
used the phrase “in this case” three other times in its
opinion while discussing various claims covering other substantive areas of law. Id. at 251a, 255a (discussing the law applicable to intellectual-disability
claims before transitioning with “in this case,”), 287a
(discussing the law covering juror-misconduct claims
before transitioning with “in this case,”).
B. Summary Reversal Here Would Radically Transform Habeas Review.
Because the State acknowledges that a rule requiring trial-counsel testimony is indefensible, the State
needs a federal court to treat the CCA’s decision as
based on some rule other than the one it articulated.
But the CCA said exactly what it meant. So what the
State is actually asking for is a rule from this Court
that federal habeas courts reviewing state-court rulings must rewrite those decisions in a manner that
would have at least arguably comported with the
Constitution, if the State offers any argument from
the record that could have supported such an imagined opinion. The State couches this as a defense of
principles of federalism underlying § 2254(d). Pet. 2,
29–30. It is no such thing.
The State’s approach begins with the presumption
that “state courts know and follow the law.” Pet. i, 2,
17, 19, 22 (quoting Woodford, 537 U.S. at 24). That
presumption requires not seizing on occasional mischaracterizations of the law when the opinion, taken
as a whole, can reasonably be read to have applied
the correct rule. See Woodford, 537 U.S. at 22 (holding that the Ninth Circuit erred in concluding the
state court had applied a “probability,” rather than
the correct “reasonable probability,” standard on
Strickland’s prejudice prong where the state opinion

21
had “painstakingly” described the correct standard
but also occasionally used the incorrect formulation).
Reeves agrees that it is not the job of federal courts to
strain to find violations of federal law.
But it is equally not the job of federal courts to
strain to ignore manifest violations of federal law or
to rewrite a state court opinion to avoid such a result.
And that is what the State needs to prevail here. The
State’s concept of “deference” is a practice of supplying supplementary rationales that the state court
never articulated in order to shield its rulings from
federal habeas review. But the deference federal habeas courts owe is to state courts. See Cullen v. Pinholster, 563 U.S. 170, 181 (2011). Presuming that a
state court knew and followed the law regardless of
what it actually said is another way of saying that
federal habeas relief should be denied in every case
where the state’s lawyers can think up some alternative rationale for the state-court ruling to present before the federal habeas court, no matter how divorced
that rationale is from the text of the state-court opinion. The deference the State seeks here is to State
lawyers, who, despite having argued for this rule to
the state court, see, e.g., ECF No. 23-29 at 199–200,
now would have preferred that the state-court’s opinion rested on some different, more defensible ground.
(In fact, as discussed below, there is no defensible rationale for rejecting Reeves’s ineffective-assistance
claim.) Nothing in the text of § 2254(d) or the policy
motivating it supports the view that federal courts
should defer to the arguments of the State’s lawyers
that are not reflected in the state-court’s ruling.
Such a novel heightening of the standard for habeas relief has nothing to recommend it. The State’s
view would pervert habeas review into a federal court
excuse-making machine for state-court violations of

22
the Constitution. It is true that in Harrington v.
Richter, 562 U.S. 86 (2011), this Court ruled that a
federal habeas court reviewing an unreasoned state
court decision should consider “what arguments or
theories . . . could have supported” the state-court decision. Id. at 102. But that just means federal courts,
in the face of state-court silence, should evaluate potential bases for the court’s decision before declaring
that it violated clear federal law. What the State
seeks here is much more. It wants a rule that even
reasoned state court decisions should be treated as a
blank canvas upon which federal courts can draw any
AEDPA-compliant ruling that state lawyers can gin
up. It is thus the State that has presented a new,
damaging “playbook,” Pet. 18, which other states may
follow in order to gut federal habeas of any meaningful capacity for relief and make it all but impossible
for prisoners to vindicate even clear violations of constitutional rights. The State’s novel approach is most
certainly not a proper use of this Court’s power of
summary adjudication, reserved only for “clear misapprehension[s]” of existing doctrine. Tolan v. Cotton,
572 U.S. 650, 659–60 (2014); Brosseau v. Haugen, 543
U.S. 194, 197–98 (2004).
Federalism and comity are not respected by ignoring a state court’s stated reasons for denying a federal constitutional claim. Respect for state courts requires taking what they say seriously, right or wrong.
A state court that insists that an ineffectiveassistance claim must be supported by trial-counsel
testimony is entitled to have a federal court treat its
approach as a genuine proposal for how to understand the Sixth Amendment. The State would prefer,
in this case, that this Court not take the CCA’s stated
rule and reasoning seriously. The State effectively
imagines a federalism that requires federal courts to

23
defer to a state court’s outcome despite its reasoning.
That is fake federalism. And this Court should reject
the invitation to read § 2254(d) to require it.
II. THE ELEVENTH CIRCUIT CORRECTLY
HELD THAT TRIAL COUNSEL WAS CONSTITUTIONALLY INEFFECTIVE
Beyond correctly holding that the CCA unreasonably applied Strickland, the Eleventh Circuit also correctly concluded that Reeves’s trial counsel violated
his right to the effective assistance of counsel.
To prevail on a claim of ineffective assistance of
counsel, a defendant must show that (1) “counsel’s
performance was deficient,” and (2) that counsel’s
“deficient performance prejudiced the defense.”
Strickland, 466 U.S. at 669. Counsel is deficient
when their “representation ‘fell below an objective
standard of reasonableness’” gauged by prevailing
professional norms. Wiggins, 539 U.S. at 521 (quoting
Strickland, 466 U.S. at 688). There is prejudice when
“there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding would have been different.” Id. at 534 (quoting
Strickland, 466 U.S. at 694).
There is no dispute here that if the CCA’s ruling
involved an unreasonable application of Strickland,
then the federal court should review the deficiency
prong of Reeves’s 6th Amendment claim without deference. There is likewise no dispute that, under this
Court’s decisions, the Court must also evaluate prejudice de novo because the CCA did not reach that
prong of the analysis. Rompilla v. Beard, 545 U.S.
374, 390 (2005).

24
A. Trial Counsel’s Performance Was Constitutionally Deficient.
The Eleventh Circuit correctly held that trial counsel performed deficiently by failing to have Reeves
evaluated for intellectual disability, particularly
when funds had been approved for that purpose. Pet.
App. 31a–39a; see Strickland, 466 U.S. at 691
(“[C]ounsel has a duty to make reasonable investigations or to make a reasonable decision that makes
particular investigations unnecessary.”). Trial counsel knew that Reeves might be intellectually disable d
and the significance of that fact to the mitigation
phase; successfully petitioned, on their second try, for
funds to have a neuropsychologist evaluate Reeves
for intellectual disability; and yet failed to contact the
neuropsychologist. Instead, trial counsel relied on Dr.
Ronan, a court-appointed psychologist who had not
evaluated Reeves for intellectual disability. And they
relied on Dr. Ronan, despite not talking to her about
Reeves until the day she testified—a point at which
trial counsel knew it would be too late.
The State’s arguments to the contrary are equal
parts misleading and unpersuasive. That McLeod
was replaced by Goggans after the trial court had authorized funds to retain Dr. Goff, Pet. 23, does not
matter. Both McLeod and Wiggins litigated Reeves’s
original motion to appoint Dr. Goff, ECF No. 23-1 at
70–71, and also his application for reconsideration,
id. at 74–77. Wiggins, who remained as Reeves’s trial
counsel, therefore was fully aware of the need for Dr.
Goff to evaluate Reeves’s intellectual disability and
that funding had been secured to hire him. And Goggans too was aware of the need to hire Dr. Goff. He
requested psychiatric records from the Taylor Hardin
facility and belatedly tried to have an expert testify

25
by speaking with Dr. Ronan for the first time on the
day of her testimony. Id. No. 23-8 at 130.
Second, contrary to the State’s suggestion, counsel’s
failure to contact Dr. Goff could not have been strategically motivated to prevent the jury from observing
cross-examination of Dr. Goff regarding the “Flynn
effect” (an IQ-adjustment method he sometimes employs). Pet. 24. Dr. Goff determined that, even without considering the Flynn effect, Reeves was intellectually disabled. ECF No. 23-24 at 75–76. And Dr.
King independently determined that Reeves had an
IQ score of 68, and confirmed that Reeves satisfied
the IQ prong of the intellectual disability test, without applying the Flynn effect. Id. No. 23-25 at 24. Regardless, trial counsel never reached out to Dr. Goff,
id. at 21–22, so they could not have known about
whether he would use that adjustment in Reeves’s
case. In fact, Dr. Goff testified during the Rule 32
hearing that he only began incorporating the Flynn
effect into his analyses several years after Reeves’s
1998 sentencing, and opined that he would have concluded that Reeves was intellectually disabled had he
evaluated him at that time. Id. at 22–23, 68–69, 75–
76; id. No. 23-15 at 105.
The State has never before, until this petition, presented this speculation about trial counsel’s strategy,
and no state court ruling ever suggested it. It also has
no basis in the record. So in addition to being wrong,
the argument is waived. See Buck v. Davis, 137 S. Ct.
759, 780 (2017) (holding State waived argument because it was not advanced in the courts below).
The State also hypothesizes that trial counsel strategically picked Dr. Ronan over Dr. Goff during the
mitigation phase because, as “a neutral expert employed by the State,” Dr. Ronan’s presentation of mitigation evidence may have seemed “more trustworthy

26
than evidence from an expert hired by the defense
team.” Pet. 24. This is yet another late-arriving theory, advanced for the first time at oral argument before the Eleventh Circuit. The fact that the State
keeps inventing new strategic rationales for failing to
do the obvious—retain Dr. Goff so the trial team
could be informed about how best to present a mitigation defense—is telling. And that none of these new
rationales can be squared with the record is dispositive.
Trial counsel first spoke with Dr. Ronan on the day
of her testimony. Trial counsel simply cannot have
meaningfully evaluated whether Dr. Ronan’s testimony would suffice and make Dr. Goff’s testimony
superfluous if they had not spoken to either of them.
Yet trial counsel ultimately called her to the stand
knowing that her evaluation of Reeves was inadequate for the mitigation phase. ECF No. 23-13 at 59;
id. No. 23-15 at 10. And, even if trial counsel had
made this choice, it could not have been reasonable.
Trial counsel was aware of the limitations of Dr. Ronan’s report—because they received it before petitioning the court for funds to hire Dr. Goff—yet determined that a neuropsychiatric evaluation was still
necessary. Id. No. 23-1 at 70. Once trial counsel
sought, and obtained, funds to retain Dr. Goff, they at
a minimum were required to talk to one of them before Reeves’s capital sentencing.
The State’s view that Dr. Ronan provided the kind
of “more than capable” expert testimony that Reeves
needed, Pet. 24–25, also fails. Dr. Ronan’s original
evaluation of Reeves “was not performed for [the]
purpose” of capital sentencing, and she had not “conducted an extensive clinical evaluation regarding
mental retardation as that was not within the scope
of [her] evaluation.” ECF No. 23-15 at 10. The deci-

27
sion to call Dr. Ronan despite these limitations,
which the “[a]ttorneys were routinely informed”
about, id., not only prevented the jury from hearing
expert opinion that Reeves was intellectually disabled, but also caused them to hear Dr. Ronan opine
baselessly that Reeves “was not in a level that they
would call . . . mental retardation.” Id. No. 23-8 at
155.
Finally, the State makes much of records from the
Taylor Hardin Secure Medical Facility that trial
counsel received after Goggans had replaced McLeod.
Pet. 7–8, 14, 16, 20, 23. According to the State, those
records “suggested that Reeves was not intellectually
disabled” and instead was in the borderline range of
intellectual functioning. Id. at 7. Thus, the argument
goes, trial counsel reasonably concluded that an evaluation of mental capacity was unnecessary. Id. at 20–
21.
The Taylor Hardin records, however, provided trial
counsel with no new information. The records were
summarized in Dr. Ronan’s report about Reeves, ECF
No. 23-13 at 59–68, which, as noted, addressed solely
his competency to stand trial and mental state at the
time of the offense. Id. at 59. And, because trial counsel had the summary of these records before they decided to seek funds to hire Dr. Goff, they could not
have changed trial counsel’s mind about the need for
a neuropsychological evaluation. The State does not
seem to disagree. Despite its emphasis on the Taylor
Hardin records, it neither cites nor describes a single
document from them that could have justified the
failure to contact Dr. Goff. That is because trial counsel already had a summary of what those documents
contained before they decided to seek funds to hire
Dr. Goff.

28
Even if the Taylor Hardin records supported that
Reeves was at a borderline level of intelligence, trial
counsel had many other indications of Reeves’s severe
intellectual shortcomings. See, e.g., ECF No. 23-30 at
90. As the Eleventh Circuit noted, given that trial
counsel had already obtained the funds to retain Dr.
Goff, and given the significance of Reeves’s mental
capacity to his mitigation case, counsel should have
“at least had [Reeves’s] mental capacity evaluated,”
Pet. App. 36a, so that they could “mak[e] an informed
choice among possible defenses,” id. at 36a–37a (quoting Wiggins, 539 U.S. at 525). See Strickland, 466
U.S. at 690–91 (“[S]trategic choices made after less
than complete investigation are reasonable precisely
to the extent that reasonable professional judgments
support the limitations on investigation”); Wiggins,
539 U.S. at 524 (stating that the failure to hire a forensic social worker when “funds [were] available”
amounted to deficient performance); Ake v. Oklahoma, 470 U.S. 68, 80 (1985) (recognizing the need for
expert assistance where the defendant’s mental condition is relevant to criminal proceedings); see also
Hinton v. Alabama, 571 U.S. 263, 274 (2014) (holding
that the failure to use available funds to secure vital
expert testimony was deficient performance). Counsel
never learned anything that would have made refusing even to contact Dr. Goff reasonable.
B. Trial Counsel’s Performance Prejudiced
Reeves.
The Eleventh Circuit also correctly concluded that
trial counsel’s failure to have Reeves evaluated for
intellectual disability resulted in prejudice. To prove
prejudice, Reeves “must show that there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.” Strickland, 466 U.S. at 694. A “reasonable

29
probability” does not mean that counsel’s performance “more likely than not altered the outcome.”
Nix v. Whiteside, 475 U.S. 157, 175 (1986). Instead, a
“reasonable probability” is a “probability sufficient to
undermine confidence in the outcome.” Strickland,
466 U.S. at 694.
Trial counsel’s performance prejudiced Reeves, given, as the Eleventh Circuit mentioned, that changing
even one juror’s mind would have precluded a death
sentence; that the trial court had not found any mitigating factors relating to intellectual disability; the
powerful testimony that Dr. Goff would have given;
the damaging testimony that Dr. Ronan gave instead;
and the lack of aggravating evidence that could have
been introduced had counsel presented testimony on
intellectual disability. Pet. App. 41a–45a.
The State nevertheless argues that testimony of Dr.
Goff would have “barely [] altered the sentencing profile presented to the sentencing judge.” Pet. 26 (quoting Strickland, 466 U.S. at 699–700). In the State’s
eyes, the claim that Reeves suffered from intellectual
disability was not meaningfully different than the
claim that he “suffered [from] low intelligence,” id. at.
27.
That’s simply not true. For starters, Alabama
treats only intellectual disability, not low intelligence, as a statutory mitigating factor. Ala. Code
§ 13A-5-51(6). The State elicited testimony from Dr.
Ronan specifically to rebut any argument that the
statutory mitigating factor applied. And Dr. Ronan
emphasized before the jury the distinction between
low intelligence and intellectual disability, and testified—without basis or objection from counsel—that
Reeves was not in the latter category. See Glenn v.
Tate, 71 F.3d 1204, 1205, 1209–11 (6th Cir. 1995) (petitioner was prejudiced by trial counsel’s failure to

30
present evidence of his low mental capacity, particularly since the jury was presented with “uncontradicted expert evidence that the offense was not the
product of mental retardation”).
The State further argues that Dr. Goff’s testimony
would have prompted a rebuttal by Dr. King. Pet. 26.
But Dr. King offered much evidence that, had it been
presented at sentencing, would have supported Dr.
Goff’s conclusion. Dr. King ultimately concluded that
Reeves was not intellectually disabled, but he administered an IQ test on which Reeves scored a 68, which
Dr. King acknowledged satisfied the IQ element fo r a
diagnosis of disability. ECF No. 23-25 at 23–24, 35,
57; id. No. 23-27 at 185. Dr. King’s assessment of
Reeves’s adaptive functioning showed that, in three
categories—prevocational/vocational activity, domestic activity, and self-direction—Reeves functioned in
the bottom 25% of intellectually disabled individuals.
Id. No. 23-25 at 66–69, 74–81; id. No. 23-27 at 186.
Dr. Goff’s testimony, supported by some of Dr. King’s
own findings, creates a “reasonable probability” that
the vote of a single juror “would have been different.”
Strickland, 466 U.S. at 669; see also Porter v.
McCollum, 558 U.S. 30, 43 (2009) (“While the State’s
experts identified perceived problems with the tests
that Dr. Dee used and the conclusions that he drew
from them, it was not reasonable to discount entirely
the effect that his testimony might have had on the
jury or sentencing judge.”).
The State next faults the Eleventh Circuit for not
“explain[ing] why . . . claims about mental disability
would outweigh or undercut the heinousness of
Reeves’s crimes.” Pet. 28. But there was, of course, no
need for the Eleventh Circuit to do so because state
and federal law make clear that intellectual disability
limits an offender’s culpability, even for the most hei-

31
nous crimes. See Ala. Code § 13A-5-51(6) (listing as a
mitigating circumstance the defendant’s “substantially impaired” capacity to appreciate the criminality of
his conduct or conform his conduct to the law);
Brownlee, 306 F.3d at 1071–73 (mentioning nonstatutory mitigating factors relating to intellectual
disability); Atkins, 536 U.S. at 318 (stating that the
“deficiencies” of intellectually disabled people “do not
warrant an exemption from criminal sanctions, but
they do diminish their personal culpability”). Moreover, the jury was aware of the nature of the crime,
and yet multiple jurors voted against the death penalty even without hearing evidence on intellectual
disability. There is a reasonable probability that at
least one more would have followed suit with a constitutionally adequate mitigation defense.
Lastly, the State contends that the jury may have
found Dr. Goff’s assessment of Reeves’s IQ to be “unpersuasive and disingenuous” because Dr. Goff sometimes incorporates the Flynn effect in his analysis.
Pet. 24. This argument is illogical. Dr. Goff concluded
that Reeves was intellectually disabled, even without
applying the Flynn effect. And he would have testified
at the sentencing phase to the same conclusion both
because he was not applying the Flynn effect at the
time of sentencing and because intellectual disability
requires an IQ score below 75, which Reeves undeniably has. ECF No. 23-24 at 75–76; see Atkins, 536
U.S. at 309 n.5. Ultimately, a “reasonable probability
. . . [means] only that the likelihood of a different result is great enough to ‘undermine[] confidence in the
outcome of the trial.’” Smith v. Cain, 565 U.S. 73, 75
(2012) (internal citation omitted). The testimony Dr.
Goff would have offered easily clears that bar.

32
CONCLUSION
For the foregoing reasons, the Court should deny
the petition for writ of certiorari.
Respectfully submitted,
JODI E. LOPEZ
RARA KANG
SIDLEY AUSTIN LLP
555 W. 5th Street
Los Angeles, CA 90013
CHARLES A. STEWART III
JONATHAN C. RUDY H ILL
BRADLEY ARANT BOULT
CUMMINGS, LLP
445 Dexter Ave.,
Ste. 9075
Montgomery, AL 36104

ROBERT N. H OCHMAN *
BENJAMIN I. FRIEDMAN
MASEEH MORADI
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000
rhochman@sidley.com
DANIEL J. DRISCOLL
SIDLEY AUSTIN LLP
2021 Mckinney Ave.,
Ste. 2000
Dallas, TX 75201

Counsel for Respondent
April 12, 2021

* Counsel of Record

